    June 27, 2005




Financial Management
Departmental Expenditure Reporting
at Defense Finance and Accounting
Service Indianapolis
(D-2005-087)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
                                INSPECTOR GENERAL
                               DEPARTMENTOFDEFENSE
                                400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 2 2 2 0 2 4 7 0 4




                                                                           June 27,2005

MEMORAND1 JM FOR UNDER SECRETARY OF DEFENSE
                  (COMPTR0LLER)ICHIEF FINANCIAL OFFICER
                 DIRECTOR. DEFENSE FINANCE AND ACCOUNTlNG
                  SERVICE

SUBJECT: Audit of Departmental Expenditure Reporting at Defense Finance and
         Accounting Senlice Indianapolis (Report No. D-2005-087)


We are providing the attached final report for your information and use. No written
response to this report is required.

Who Should Read This Report and Why? DoD and Army financial management
personnel responsible for promoting proper financial management and preparing
financial statcments should read this report. The report discusses whether the Defense
Finance and Accounting Service (DFAS) Indianapolis consistently and accurately
conlpiled expenditure data for the departmental statements submitted to the
U.S. Treasury.

Background. DFAS Indianapolis Expenditures Division collects, adjusts, and compiles
financial data for all disbursements and collections made by the DFAS Indianapolis
network. Each month, the Division receives statements of accountability. transactions,
and interfund from Army disbursing stations and other central accounting sites; edits the
data; makes departmental adjustments; and prepares departmental ~ t a t e ~ e noft s
accountability. transactions, and interfund for Treasury submission. DFAS Indiana~olis
processed and reported disbursements of about $15.8 billion in 456 unique appropGations
for November 2004.

Results. The DFAS Indianapolis Expenditures Division accurately con~piledexpend~ture
data from ficld organizations and other sources for the November 2004 departmental
statements of accountability. transactions, and interfund. We identified problems with
the supportability of some adjustments, but the Treasury Reports Branch either provided
adequate explanations or agreed to take the corrective actions we suggested during the
audit. We determined that all auxiliary information could be traced to a specific source.
Overall, DFAS management controls were adequate in that we identified no material
management control weaknesses in the compilation of expenditure data. (See the
attached slides numbered 7-1 0 for details.)
We appreciate the courtesies extended to the staff. Questions should be directed to
Mr. Cam~eloG. Ventimiglia at (317) 510-3855 (DSN 699-3855) or Mr. Paul C. Wenzel
at (317) 510-3859 (DSN 699-3859). See slide 17 for the report distribution. The audit
team members are listed on slide 18.


                             By direction of the Deputy Inspector General for Auditing:



                                            . ~ a q ~ r m e t tCPA
                                                                 o.
                                            Assis ant Inspector General
                                            Defense Financial Auditine
                                                      Service
                                                                      -
Attachment
  Audit of Departmental Expenditure Reporting at
                DFAS Indianapolis
                              Project No. D2005-D000FI-0085.000




                                    Report No. D-2005-087

                                              June 27, 2005


A regular statement and account of the receipts and expenditures of all public money shall be published from time to time.
                                  Article I, Section 9 of the Constitution of the USA
                                         Audit Background

The Defense Finance and Accounting Service Indianapolis
Expenditures Division collects, adjusts, and compiles financial
data for all disbursements and collections made by the DFAS
Indianapolis network.
Each month, the Division:
  • receives statements of accountability, transactions, and
    interfund from Army disbursing stations and other central
    accounting sites;
  • edits the data;
  • makes departmental adjustments; and
  • prepares departmental statements of accountability,
    transactions, and interfund for Treasury submission.
                                                              2
                                            Audit Background



The consolidated Treasury Tape (SF 1220) summarizes,
classifies, and reports all receipts (or collections) and outlays
(or disbursements) made by the DFAS Indianapolis network
in a Treasury-prescribed format to the U.S. Treasury on a
monthly basis. The Treasury Tape consists of the Statement
of Accountability (SF 1219), Statement of Transactions
(SF 1329), and Statement of Interfund (DD Comp 1400) at
the Department of the Army level.



                                                                    3
                                          Audit Background

For November 2004, DFAS Indianapolis:
    • Processed and reported disbursements equaling about
      $15.8 billion in 456 unique appropriations.
    • Processed and reported about $12.0 billion in confirmed
      deposits with the U.S. Treasury.
    • Processed and reported about $2.6 billion in interfund
      transactions.
    • Prepared 44 journal vouchers (debits of $134.0 billion and
      credits of $101.3 billion) affecting expenditure reporting
      operations. Of these, 10 journal vouchers (debits and
      credits of about $237,000 each) were reported on the
      monthly Treasury submission for November 2004.

                                                               4
                                          Audit Objectives




Determine whether the Defense Finance and Accounting
Service (DFAS) Indianapolis accurately compiled expenditure
data from field organizations and other sources for the
departmental statements of accountability and transactions
submitted to the U.S. Treasury.
Evaluate the management control program as it relates to the
audit objective.




                                                               5
                                               Conclusion




The DFAS Indianapolis Expenditures Division accurately
compiled expenditure data from field organizations and other
sources for the November 2004 departmental statements of
accountability, transactions, and interfund.




                                                               6
                                               Audit Results



• We deconstructed the November 2004 Treasury Tape to
  ensure that it matched field-submitted data, plus related edits
  and corrections. We found that the Treasury Tape accurately
  and completely traced back to the source documents, plus data
  corrections initiated by DFAS Indianapolis. No differences
  were noted for any of the lines on the Treasury Tape.




                                                               7
                                  Audit Results (continued)

• We reviewed all 44 November adjusting journal vouchers
  prepared within the Expenditures Division or affecting the
  Treasury Tape, plus two Treasury Supplemental adjustments.

• We found that there were problems in the supportability of
  the values presented on the face of the journal vouchers. Of
  the 44 journal vouchers with debits of $134.0 billion and
  credits of $101.3 billion, we identified 10 unsupported journal
  vouchers with debits of $33.7 billion and credits of $1.0
  billion. After we reviewed the journal vouchers, DFAS either
  provided adequate explanations to better support the vouchers
  or agreed to perform suggested corrective actions.

                                                                8
                                     Audit Results (continued)

The majority of the total unsupported amount came from two
journal vouchers:
  • One voucher had $32.8 billion in debits and $78 million in credits.
    This voucher is prepared monthly to bring the Balance Forward into
    agreement with the Treasury Trial Balance. We review the
    September voucher every year as part of our financial statement
    compilation work. DFAS can adequately support this voucher. We
    classified this voucher as unsupported because it did not contain the
    level of detail typically found in the September voucher.
  • The other voucher had $0.9 billion in debits and credits. This
    voucher was part of the suspense account write-off package presented
    to DFAS in November 2004.


                                                                        9
                            Audit Results (continued)



• In addition, we considered the two Treasury Supplemental
  adjustments unsupported. These two adjustments had an
  absolute value of $2,626,886. However, they did not
  affect the values presented on the Treasury Tape.

• We examined auxiliary information on the Treasury Tape
  and the procedures to include that information on the
  Treasury Tape. We found that all information could be
  traced to a specific source and that it was generally
  accurate. The inaccuracies we noted have since been
  corrected.
                                                        10
                                   Scope and Methodology

We reviewed the DFAS Indianapolis processes for
compiling expenditure data from field organizations and other
sources for the departmental statements of accountability and
transactions submitted to the U.S. Treasury. We:
    • Traced disbursing station reports to the monthly report
      submitted to the U.S. Treasury for November 2004.
    • Reviewed the related statements of accountability,
      transactions, and interfund.
    • Analyzed adjustments.
    • Analyzed the preparation of the monthly report.
    • Traced additional information included in the report to its
      source.
                                                               11
                   Scope and Methodology (continued)



We reviewed the Treasury Tape preparation process only for
November 2004. The preparation of the Treasury Tape is a
monthly process that does not change from month-to-month.
Therefore, we could limit the scope of our audit work without
affecting our audit conclusions.
We conducted the audit from December 2004 through May
2005, in accordance with generally accepted government
auditing standards.




                                                            12
                              Computer-Processed Data




During the audit, we used data produced by the Headquarters
Accounting and Reporting System a non-compliant legacy
system scheduled for replacement. However, the audit work
was process-based, and our conclusions did not rely on the
transaction values produced by the system and presented on
the Treasury Tape.




                                                          13
                                   GAO High-Risk Area




The Government Accountability Office has identified several
high-risk areas in DoD. This report provides coverage of the
DoD Financial Management high-risk area.




                                                          14
                          Management Control Program


DoD regulations require organizations to implement a
comprehensive system of management controls that provide
reasonable assurance that programs are operating as intended
and to evaluate the adequacy of the controls.
We examined the existence of the management control
program within the Expenditures Division. Because the
FY 2005 program still in progress, we only examined the
FY 2004 program. We found that the management control
program was in place and operating within the DFAS
Indianapolis Expenditures Division for FY 2004. We
identified no material management control weaknesses in the
compilation of expenditure data.

                                                               15
                                          Prior Coverage




During the last five years, the U.S. Army Audit Agency issued
one report relating to the audit objective.

   • U.S. Army Audit Agency Report No. A-2005-0127-
     ALW, “Validation of the Army’s Fund Balance with
     Treasury,” March 10, 2005.




                                                          16
                                     Report Distribution


We will provide a copy of this report to the:
   Under Secretary of Defense (Comptroller)/Chief Financial
    Officer
   Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service
    Indianapolis




                                                          17
                         Audit Team


Paul J. Granetto
Carmelo G. Ventimiglia
Paul C. Wenzel
Craig W. Zimmerman
Andrew D. Gum
Holly B. Oswalt




                                  18
